           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     COMPLIANCE WITH ONSITE
   SECURITY CONTROL AND AUDIT
     REVIEW REQUIREMENTS AT
          FIELD OFFICES

  September 2007   A-02-07-27021




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      September 4, 2007                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Compliance with Onsite Security Control and Audit Review Requirements at Field
           Offices (A-02-07-27021)


           OBJECTIVE

           Our objectives were to assess (1) the Social Security Administration’s (SSA)
           procedures for selecting field offices (FO) for Onsite Security Control and Audit Reviews
           (OSCAR), (2) SSA’s system for ensuring appropriate correction of deficiencies
           identified through OSCARs, and (3) additional steps SSA can take to enhance the
           OSCAR guide.

           BACKGROUND
           SSA’s Management Control Review Program was designed to improve the
           accountability and effectiveness of SSA programs and operations by establishing,
           assessing, and reporting on management controls. The Management Control Review
           is an important part of SSA’s efforts to ensure its financial, program, and administrative
           processes are functioning as intended and comply with the Federal Managers' Financial
                          1
           Integrity Act.

           The Management Control Review Program is implemented at FOs through the OSCAR
           process. OSCARs are performed in each region by Center for Security and Integrity
           (CSI) staff and an outside contractor. The CSI staff visits each FO to ensure the
           efficiency, effectiveness, and integrity of its operations. The staff uses the same
           standard guides, checklists, and tests in each region.

           The OSCAR addresses nine areas related to FO operations: Third Party Draft Account,
           Acquisitions, Refund and Remittance Processes, Time and Attendance, Security of
           Automated Systems, Physical and Protective Security, Enumeration, Critical Payment
           System, and Integrity Review Areas.



           1
               Federal Managers’ Financial Integrity Act of 1982, Pub. L. No. 97-255.
Page 2 - The Commissioner


CSI and the contractor review all OSCAR guide chapters during OSCARS. Additionally,
each region assigns two chapters for self-review by FO managers, annually. 2

Within 45 days of the completion of the OSCAR, the CSI or contractor staff issues a
final report on the deficiencies, if any, in management control they identified and
recommendations for addressing the deficiencies. The FO manager has 45 days to
develop a Corrective Action Plan to address any deficiencies noted in the final report.
The Area Director must validate the Corrective Action Plan within 90 days of receipt. If
the FO manager or Area Director cannot meet these timeframes, they can apply for an
extension from CSI or SSA’s Division of Financial Integrity.

The OSCAR guide allows each region to select either a 5-year plan or targeted review
approach for FO reviews. The 5-year plan requires that regions conduct OSCARs in
each of their FOs in 5 years and allows them to review FOs without using specific
criteria for selection. The targeted approach allows regions to perform reviews based
on stipulated target criteria, for example, when a new manager takes over an office or a
manager’s self-review identifies problems. Regions must document target review
criteria for each OSCAR performed and maintain those records for at least 3 years.
Additionally, each region is required to review a minimum of 10 percent of FOs each
year.

We reviewed SSA’s FO OSCAR selection process for Fiscal Years (FY) 2002 through
2006. Additionally, we visited 20 FOs nationwide, 2 FOs in each of SSA’s 10 regions,
in which OSCARs were conducted between April 1, 2005 and March 31, 2006. We
reviewed FO managements’ efforts to correct deficiencies noted in the OSCAR reports.
We also interviewed SSA staff to solicit ideas for improving the OSCAR process. See
Appendix B for additional background, scope, and methodology and Appendix C for a
list of FOs visited.

RESULTS OF REVIEW

We found the OSCAR process for FOs to be generally effective in selecting FOs for
review and correcting deficiencies found. Most of the regional offices that followed the
5-year plan reviewed or came close to reviewing 100 percent of their FOs during
FYs 2002 through 2006. Similarly, the five regions that chose the targeted approach
generally reviewed the required minimum 10 percent of their FOs. Most of the
deficiencies noted in OSCARS were corrected at the FOs we visited, though some
deficiencies still existed at the time of our review. In addition, OSCAR reporting
requirements were generally completed timely, but late responses had not received
extensions. Lastly, we identified some areas of the OSCAR process that could be
improved.




2
    We did not include self-reviews performed by FO managers in this audit.
Page 3 - The Commissioner


FIELD OFFICE SELECTION PROCESS

As of the end of FY 2006, 5 of SSA’s 10 regions had chosen to follow a 5-year plan,
and 5 had chosen a targeted approach. Most of the five regions that followed the
5-year plan reviewed or came close to reviewing 100 percent of their offices during
FYs 2002 through 2006 (see Table 1). In Region 8, however, one-quarter of the offices
was not reviewed during the 5-year period.

                                           Table 1:
                        Regions Using the 5 Year Plan Selection Method
                                   Number of        Number of FOs     Percent of FOs
                Region               FOs in      Reviewed in 5-Year Reviewed in 5-
                                    Region*             Cycle           Year Cycle
        Region 4 (Atlanta)            261               n/a**              n/a**
        Region 6 (Dallas)             151                151               100
        Region 7 (Kansas City)         79                 78                99
        Region 8 (Denver)              58                 43                74
        Region 10 (Seattle)            53                 53               100
      *This includes all FOs open in FYs 2002 through 2006, and does not include teleservice centers.
       ** Region 4 changed from using a targeted approach to a 5-Year Plan beginning in FY 2005.

The five regions that chose the targeted approach generally reviewed the required
                                                                                  3
minimum 10 percent of their FOs for each of the years we reviewed (see Table 2).
Additionally, these regions used and documented target review criteria in accordance
with the OSCAR guide.

                                           Table 2:
                 Regions Using the Targeted Review Criteria Selection Method
                                 Number of         Percent of FOs Reviewed Per FY
                Region             FOs in
                                   Region*     2002     2003    2004    2005    2006
        Region 1 (Boston)            74          9       10      10      11      10
        Region 2 (New York)          135        10       10       9      16      13
        Region 3 (Philadelphia)      143        13       14      16      14      14
        Region 5 (Chicago)           226        10       10      12      12      10
        Region 9 (San Francisco)     168        13       16      13      10      10
       *This includes all FOs open in FYs 2002 through 2006, and does not include teleservice centers.

CORRECTIVE ACTIONS

We reviewed each deficiency identified in the latest OSCAR for 20 FOs to determine
whether the appropriate corrective actions were taken. In total, there were
716 deficiencies noted in the 20 offices; we found 53 of the deficiencies still present at
the time of our visits.



3
    Region 4 (Atlanta) met the minimum 10-percent review criteria for FY 2002 to 2004.
Page 4 - The Commissioner


The 53 deficiencies were more likely to fall into 2 OSCAR review areas: Time and
Attendance and Integrity Review. At the time of our visits, staff in 10 of the
20 FOs visited were not fully complying with time and attendance documentation
procedures, such as sequentially signing in and out and/or completing time sheets
correctly. Also, integrity reviews were not performed timely at four FOs. For example,
3 of the 10 integrity reviews we examined at 1 FO were not completed within the
required 30 days. Similarly, 1 of the 18 integrity reviews we examined at another FO
took longer than the allotted 30 days.

REPORTING REQUIREMENTS

The OSCAR process includes timeframes for issuing reports and corrective action
plans, validating corrective actions taken, and allowing extensions. Generally, the
reports, corrective action plans, and the validation of corrective actions were completed
on time, or close to on time. Only one of the OSCAR reports was not timely; it was
released 7 days after the 45 day deadline. Four of the 20 corrective action plans were
not timely and were generally between 1 and 2 weeks late. Similarly, the area directors’
validations of corrective actions were not timely in 6 of the 20 offices. Validations were
generally from 1 week to 1 month past the allotted 90 days, with one validation being
more than 4 months overdue. This office reported that the area director waited to
validate corrective actions until the completion of some extensive office renovations that
addressed some of the OSCAR findings. The offices that did not complete timely
corrective action plans or validations of the plans did not request extensions, as the
OSCAR manual allows.

ONSITE SECURITY CONTROL AND AUDIT REVIEWS GUIDE

As part of our audit, we solicited ideas from SSA staff on how to improve the OSCAR
process. SSA staff suggested the following.

•   The enumeration chapter in the OSCAR guide should be updated since the Social
    Security Card application process has changed. The OSCAR guide requires that a
    reviewer verify that required fields in the application are completed. The current
    computer program, SS-5 Assistant, 4 used to process Social Security Card
    applications has built-in controls that do not allow a user to proceed without filling in
    required information.




4
 We recently reported on this process in our July 2007 audit Field Office Use of the SS-5 Assistant
(A-04-07-17026).
Page 5 - The Commissioner


•   The OSCAR guide should further consider current work environments that allow
    some FO staff to work outside of the field office using an SSA-provided laptop. The
    OSCAR does not review procedures in place to ensure safeguarding laptop
    computers and/or the personally identifiable information contained within the laptop
    computers taken outside of FOs. 5

CONCLUSION AND RECOMMENDATIONS

While we found the OSCAR process for FOs to be generally effective in both selecting
FOs for review and correcting deficiencies found, improvements can be made to make
the OSCAR process more effective. We recommend SSA:

1. Ensure all regions using the 5-year plan selection method review all FOs within a
   5-year period. Also, since Region 4 began using the 5-year plan selection method
   in FY 2005, it should be evaluated after it completes a full 5-year period to ensure
   the required number of FOs are reviewed.

2. Direct FO managers to ensure continued compliance with corrective actions taken
   for previously identified deficiencies.

3. Ensure reporting timeframes are met or appropriate extensions are requested and
   approved.

4. Update the OSCAR guide as needed to reflect changes in SSA’s working
   environment, including updating the enumeration chapter and addressing personally
   identifiable information and laptop security.

AGENCY COMMENTS

The Agency agreed with all of our recommendations. The Agency’s comments are
included in Appendix D.




                                                        Patrick P. O’Carroll, Jr.




5
  In June 2006, SSA released interim guidance on safeguarding this information as part of its Information
Systems Security Handbook, which provides basic security guidance for SSA employees, contractors, and
government or business partners who handle SSA information. The responsibility to protect personally
identifiable information applies at all times regardless of whether SSA employees, contractors or other
government personnel with this information are officially on duty or not on duty.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Field Offices Reviewed
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
CSI           Center for Security and Integrity
FO            Field Office
FY            Fiscal Year
GAM           General Administration Manual
GN            General
OIG           Office of the Inspector General
OSCAR         Onsite Security Control and Audit Review
Pub. L. No.   Public Law Number
SSA           Social Security Administration
                                                                   Appendix B

Scope and Methodology
To define the Onsite Security Control and Audit Review (OSCAR) process and criteria,
we researched the OSCAR guide for field offices (FO), the Social Security
Administration’s (SSA) Management Control Review program, and the Federal
Managers' Financial Integrity Act of 1982.

We researched the following sections of the Program Operations Manual System.

•   General (GN) 02403.002 Remittance Processing Responsibilities – General
•   GN 02403.006 Processing Remittances Received in the FO
•   GN 02403.009 Processing Cash Remittances Received in the FO
•   GN 02403.010 Completing the Cash Log
•   GN 02403.050 Unverified Alert Process – Remittances
•   GN 02403.100 Issuing and Reassigning SSA-1395-BK Receipt Books
•   GN 02403.145 Performing the Annual Management Review

We researched sections of the Administrative Instructions Manual System.

•   Financial Management Manual, Chapter 03, Finance and Accounting
•   General Administration Manual (GAM), Chapter 11, Emergency Management/Civil
    Defense
•   GAM, Chapter 12, Field Administration
•   GAM, Chapter 13, Health and Safety Management
•   Material Resources Manual, Chapter 04, Property Management

There were 1,348 FOs during FY 2002 through 2006 among 10 regions, as follows.

                       Region                           FOs
                       Region 1 (Boston)                   74
                       Region 2 (New York)                135
                       Region 3 (Philadelphia)            143
                       Region 4 (Atlanta)                 261
                       Region 5 (Chicago)                 226
                       Region 6 (Dallas)                  151
                       Region 7 (Kansas City)              79
                       Region 8 (Denver)                   58
                       Region 9 (San Francisco)           168
                       Region 10 (Seattle)                 53
                       Total                            1,348


                                         B-1
To accomplish our objective for the FO selection process, we reviewed the OSCARs
completed for FYs 2002 through 2006. To achieve our results, we:

•   Reviewed the OSCAR guide to gain an understanding of the two methods available
    to select FOs for OSCARs.

•   Determined whether all regions were reviewing the minimum required FOs each
    year of our period of review, per their chosen method of selection.

•   Determined whether those regions with a 5-year plan for FO reviews had reviewed
    each of their FOs in our 5-year period.

•   Determined whether each region using targeted review criteria as a basis for FO
    selection maintained documentation of such criteria for the minimum required time.

We identified 214 FOs in the 10 regions that had an OSCAR performed by the Center
for Security and Integrity or an outside contractor’s staff from April 1, 2005 to
March 31, 2006. To accomplish our objective related to the corrective actions taken for
deficiencies identified through OSCARs, we:

•   Selected a sample of 20 FOs, 2 per region, to review and measure overall
    characteristics.

•   Reconciled actual OSCAR reporting processes with OSCAR reporting criteria for the
    20 FOs to determine whether OSCAR Reports and Corrective Action Plans were
    submitted and validated timely.

•   Performed on-site reviews at the 20 FOs to verify corrective actions were taken for
    deficiencies identified as part of an OSCAR.

We also solicited ideas for the improvement of the OSCAR process through review and
analysis of our work results and interviews of relevant SSA personnel.

We performed our audit in the New York Audit Division and visited 20 FOs nationwide
from December 2006 through June 2007. We found data used for this audit were
sufficiently reliable to meet our objectives. The entities audited were SSA’s Center for
Security and Integrity and Division of Systems Security and Program Integrity, both
under the Deputy Commissioner, Operations and SSA’s Division of Financial Integrity,
under the Deputy Commissioner, Budget, Finance and Management. We coordinated
our review results with the auditees. Our audit was conducted in accordance with
generally accepted government auditing standards.




                                           B-2
                                                       Appendix C

Field Offices Reviewed
      Number   Region   Field Office Location
         1        1     Malden, Massachusetts
         2        1     Lynn, Massachusetts
         3        2     New York City, Downtown, New York
         4        2     Hoboken, New Jersey
         5        3     Fredericksburg, Virginia
         6        3     Philadelphia, Downtown, Pennsylvania
         7        4     Winder, Georgia
         8        4     Gwinnett, Georgia
         9        5     Kenosha, Wisconsin
        10        5     Chicago, West Town, Illinois
        11        6     Fort Worth, Texas
        12        6     Dallas, Pleasant Grove, Texas
        13        7     Warrensburg, Missouri
        14        7     Emporia, Kansas
        15        8     Denver, Colorado
        16        8     Fargo, North Dakota
        17        9     West Sacramento, California
        18        9     San Mateo, California
        19       10     Puyallup, Washington
        20       10     Tacoma, Washington
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM

Date:      August 23, 2007                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/


Subject:   Office of the Inspector General (OIG) Draft Report, "Compliance with Onsite Security Control
           and Audit Review Requirements at Field Offices” (A-02-07-27021)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, on (410) 965-4636.


           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “COMPLIANCE WITH ONSITE SECURITY CONTROL AND AUDIT
REVIEW REQUIREMENTS AT FIELD OFFICES” (A-02-07-27021)

Thank you for the opportunity to review and provide comments on this draft report. Our
comments on the draft recommendations are as follows.

Recommendation 1

Ensure all regions using the 5-year plan selection method review the required number of field
offices (FO). Also, since Region 4 began using the 5-year plan selection method in fiscal year
2005, it should be evaluated after it completes a full 5-year period to ensure the required number
of FOs are reviewed.

Comment

We agree. On August 13, 2007, we issued a memorandum to all Directors in the Regional
Centers for Security and Integrity (CSI) reminding them to ensure that all sites are reviewed
under the 5-year plan if that selection method is used. We will complete an evaluation in
Region 4, after their full 5-year review period is complete, to ensure the required number of FOs
have been reviewed.

Recommendation 2

Direct FO managers to ensure continued compliance with corrective actions taken for previously
identified deficiencies.

Comment

We agree. As noted in the report, we implemented a two-chapter per year Onsite Security
Control and Audit Reviews (OSCAR) self-review requirement for the field offices. In addition,
we will include a reminder in the Annual Reminders to Managers, which is scheduled to be
released in October 2007.

Recommendation 3

Ensure reporting timeframes are met or appropriate extensions are requested and approved.

Comment

We agree. On August 13, 2007, we issued a memorandum to all Directors in the Regional CSIs
to reinforce the importance of meeting the timeframes and that requests for extensions are
documented.




                                               D-2
Recommendation 4

Update the OSCAR guide as needed to reflect changes in SSA’s working environment, including
updating the enumeration chapter and addressing personally identifiable information (PII) and
laptop security.

Comment

We agree in part. We review and update the OSCAR guide on a monthly basis, to ensure it is in
alignment with current security policies and procedures. We have added questions to the guide
regarding security of laptops and of PII. In the current version of the field office OSCAR, laptop
security is addressed in Chapter 5, “Security of Automated Systems,” while the security of PII is
addressed in Chapter 6, “Physical and Protective Security.” Regarding the enumeration chapter,
we do not think it should be updated at this time. We have had great success with initiatives
such as the implementation of the SS-5 Assistant and the creation of the New York Modernized
Enumeration System Workload Management Information website for monitoring of this
workload to ensure the accuracy and integrity of our enumeration actions. There continue to be
findings in this sensitive area, therefore, we do not anticipate eliminating a significant number of
the chapter questions. We will continue to monitor this area to ensure that the enumeration
chapter focuses on any noted areas of vulnerability.




                                                D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, 212-264-5295

   Victoria Abril, Audit Manager, 212-264-0504

Acknowledgments

In addition to those named above:

   Denise Molloy, Senior Analyst, 212-264-4215

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-02-07-27021.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
